WAIVER

FILED

Supreme Court of the United State 5 DEC - I 2020
OFFICE OF THE CLERK
SUPREME COURT. U.sl

No, 20-607
Tatyana E. Drevaleva
(Petitioner)

v.

Alameda Health System
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Ef Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of theJUnited States.
S' I am not presently a memberof be^Bhfmthis Cotfrt^Should;
the response will be filedhyjpP .r njdmbefT)'^^

iponse be requested,

Signature

C-'

Date:___

a
. i

o

(Type or print) Name Timothy C. Travelstead
EfMr.
□ Ms.

□ Mrs.

□ Miss

pirm Narayan Travelstead P.C.
Address 7901 Stoneridge Drive, Suite 230
City & State. Pleasanton, California

Zip 94568

Phone 650-403-0150
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SB. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc:

Tatyana Drevaleva
tdrevaleva@gmail.com

Received
DEC -9 2020
Obtain status of case on the docket. By phone at 202-479-3034 or via the interne t
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

w«o iHF"
A Professional Law Corporation

Timothy Travelstead
T.Travelstead@NarayanTravelstead.com

December 1,2020

U.S. Priority Mail
Court Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:
Tatyana Drevaleva v. Alameda Health System, et al.
Case No.:
US Supreme Court Case No. 20-607
Our File No.: BE-070
Dear Clerk,
We represent Alameda Health System regarding the above-referenced matter. Alameda
Health System hereby submits the enclosed Waiver. Please file the Waiver and return a filed
copy in the enclosed self-addressed stamped envelope.
Thank you. Should you have any questions, please do not hesitate to contact us.

Sincerely,

Tim Travelstead
TT:mnm
Enclosures:

As stated.

7901 Stoneridge Drive, Suite 230, Pleasanton, CA 94 jSf^EQ^^V^SDoi lO
400 S. Farrell Drive, Suite B120, Palm Springs, CA 9i 26
www.NarayanTravelstead.com

kc7-6m7i5D

